TN

C@OCKLE

2311 Douglas Street ; E-Mail Address:
Omaha, Nebraska 68102-1214 Le g3 | B ad fs contact@cocklelegalbriefs.com
1-800-225-6964 Web Site
(402) 342-2831 www.cocklelegalbriefs.com
Fax: (402) 342-4850 No. 19-1082
STEPHEN LINDER,
Petitioner,

Vv.
UNITED STATES OF AMERICA,
Respondent.

AFFIDAVIT OF SERVICE

I, Andrew Cockle, of lawful age, being duly sworn, upon my oath state that I did, on the Sth day of June, 2020, send out from
Omaha, NE | package(s) containing 3 copies of the REPLY BRIEF in the above entitled case. All parties required to be
served have been served by third-party commercial carrier for delivery within 3 calendar days. Packages were plainly
addressed to the following:

SEE ATTACHED
To be filed for:
JOHN PAUL SCHNAPPER- CYNTHIA H. HYNDMAN*
CASTERAS ALAN F, CURLEY
CAROLYN SHAPIRO ROBINSON CURLEY P.C.
SCHNAPPER-CASTERAS PLLC 300 South Wacker Drive
1717K Street NW Suite 1700
Suite 900 Chicago, Illinois 60606
Washington, D.C. 20006 (312) 663-3100
(202) 630-3644 chyndman@

Subscribed and sworn to before me this Sth day of June, 2020.

robinsoncurley.com
Counsel for Petitioner

*Counsel of Record

Tam duly authorized under the laws of the State of Nebraska to administer oaths.

         

f GENERAL NOTARY-State of Mobraska
ARNEE J, GOSS
| My Comrn, Ex. September 8, 2023 |

    

Notary Public

hoo Qudiaw-h, Gale

 

Affiant
Counsel for United States

NOEL J. FRANCISCO
Solicitor General

Counsel of Record

JOSEPH H. HUNT

Assistant Attorney General
MARK B. STERN
GERARD SINZDAK
Attorneys

U.S. Department of Justice
Room 5616

950 Pennsylvania Avenue, N.W.
Washington, DC 20530-0001
(202) 514-2217
supremectbriefs@usdoj.gov
